WAIVER
SUPREME COURT OF THE UNITED STATES
No.

No. 20-1812.

Donald C. Kupperstein

Irene Schall, PR of Estate of Kuhn et al.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Commonwealth of Massachusetts, Executive Office of Health & Human Services

Please check the appropriate box:

0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

7/2/21

(Type or print) Name Paul T. O'Neill
0 Mr.

Ms.

0 Mrs.

0 Miss

Firm

Massachusetts Executive Office of Health & Human Services

Address

One Ashburton Place, Room 1109

City & State

Boston

Phone

617-573-1600

Zip 02108
Email Paul.O'Neill@Mass.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover lette is required
Attorney David Baker, Attorney Roger Stanford
CC:

JUL 1i 2021

1

asr,,.. OF4ou
HE CLERK
RT,

